                                                           AGENCY PROFILE

The National Labor Relations Board              represented by a union in dealing with
(NLRB or Agency) is an independent              their employers and, if so, by which
Federal agency established in 1935 to           union; and (2) to prevent and remedy
administer the National Labor Relations         unlawful acts, called unfair labor
Act (NLRA). The NLRA is the                     practices, by either employers or unions.
principal labor relations law of the
United States, and its provisions               NLRB authority is divided by law and
generally apply to private sector               delegation. The five-member Board
enterprises engaged in, or to activities        primarily acts as a quasi-judicial body in
affecting, interstate commerce. NLRB            deciding cases on formal records. The
jurisdiction includes the U.S. Postal           General Counsel investigates and
Service (other government entities,             prosecutes unfair labor practices before
railroads, and airlines are not within          administrative law judges, whose
NLRB’s jurisdiction).                           decisions may be appealed to the Board;
                                                and, on behalf of the Board, conducts
The NLRB seeks to serve the public              secret ballot elections to determine
interest by reducing interruptions in           whether employees wish to be
commerce caused by industrial strife. It        represented by a union.
does this by providing orderly processes
for protecting and implementing the             The Board consists of the Chairman and
respective rights of employees,                 four Members who are appointed by the
employers, and unions in their relations        President with the advice and consent of
with one another. The NLRB has two              the Senate. Board Members serve
principal functions: (1) to determine and       staggered terms of 5 years each. The
implement, through secret ballot                General Counsel is also appointed by the
elections, the free democratic choice by        President with the advice and consent of
employees as to whether they wish to be         the Senate and serves a 4-year term.




NLRB OIG Semiannual Report                  1              April 1 – September 30, 2006
                                                                      AGENCY PROFILE

On August 3, 2006, the Senate                 The NLRB received an appropriation of
confirmed nominees Peter C. Schaumber         $252,268,000 for Fiscal Year (FY) 2006,
and Wilma B. Liebman to be Members            less an across-the-board rescission of 1
of the Board for 5-year terms. Member         percent, leaving a net spending ceiling of
Schaumber is serving in a second term         $249,745,320 to fund a ceiling of 1,840
expiring August 27, 2010. When his            full-time equivalents. NLRB
first term expired on August 27, 2005,        Headquarters is at 1099 14th Street, NW,
Member Schaumber received a recess            Washington, DC.
appointment on September 1, 2005.
Member Liebman is serving in a third          In addition to the Headquarters building,
term expiring August 27, 2011. She has        employees are located in 51 field offices
served as a Board Member since                throughout the country. Three satellite
November 14, 1997.                            offices for the Administrative Law
                                              Judges are located in Atlanta, San
Ronald Meisburg was confirmed on              Francisco, and New York City. Since
August 3, 2006, to be NLRB General            October 2, 2000, field offices have
Counsel for 4 years. He has served as         included 32 Regional Offices, 16
General Counsel since January 2006 as a       Resident Offices, and 3 Subregional
recess appointee.                             Offices.


Chairman Robert J. Battista and Board         Additional information about the NLRB
Members Peter N. Kirsanow and                 can be found on the Web site
Dennis P. Walsh are also on the Board.        www.NLRB.gov.




NLRB OIG Semiannual Report                2              April 1 – September 30, 2006
                                   OFFICE OF INSPECTOR GENERAL

NLRB established the Office of Inspector General (OIG) pursuant to the 1988
amendments to the Inspector General Act of 1978 (IG Act).


Resources                                      Counsel/Assistant Inspector General for
The FY 2006 OIG budget is $1,080,327           Investigations, Assistant Inspector
for operations, of which $178,000 is for       General for Audits, an investigator
contract services. In addition to the          (position currently vacant), three
Inspector General, the OIG consists of a       auditors, and a staff assistant.




NLRB OIG Semiannual Report                 3               April 1 – September 30, 2006
                                                             AUDIT PROGRAM

The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate audits relating to program operations of the Agency. OIG issued two audit
reports, six inspection reports, and two issue alerts.

Reports Issued                                   the labor categories requested in the
•   We issued Audit Report                       statement of work. We estimate that the
OIG-AMR-51-06-02, Information                    Agency could put over $500,000 to
Technology Procurement Actions on                better use for the base period and four
June 29, 2006. This audit evaluated the          option years if the correct labor
acquisition process for information              categories were utilized.
technology (IT) related services.
                                                 Three contracts had issues relating to
Several procurement actions were not             funds management. The Agency
processed in accordance with the Federal         obligated $758,875 in FY 2005 funds for
Acquisition Regulation. Two contracts            services occurring entirely in FY 2006.
were not appropriately sole-sourced and          The Agency did not deobligate $40,000
the lack of competition for another was          identified as not being needed for
not properly documented. The Agency              another contract. Also, the Agency paid
also improperly entered into two time-           $6,721 in travel costs that were either
and-materials contracts.                         unsupported or were not allowed.


For one contract, the Agency utilized the        Management agreed with most findings
wrong General Services Administration            and we reached agreement on the
Schedule. We estimated that the Agency           recommendations. The Agency
could have saved approximately $41,000           corrected the improper obligation after
if the correct schedule was utilized. For        we requested and received a
another contract, the contractor provided        Comptroller General opinion.
labor categories that did not agree with



NLRB OIG Semiannual Report                   4               April 1 – September 30, 2006
                                                                           AUDIT PROGRAM

•   We issued Audit Report                        •   We issued Inspection Report
OIG-AMR-53-06-03, Office of Appeals               OIG-INS-42-06-02, Witness Fees, on
Survey, on September 12, 2006. We                 April 27, 2006. We evaluated the
gathered information about the Office of          NLRB's processes for paying fees and
Appeals to determine functions                    travel costs to witnesses.
performed by the office and identify
related internal controls. We did not             We found that the Agency reviews and
identify potentially significant structural       deobligates funds for travel and witness
or procedural issues within the Office of         fees after the fiscal year ends. Those
Appeals and concluded that a more                 funds are then unavailable for new
detailed review of the Office was not             obligations. In addition, 13 of the 110
necessary at this time.                           witnesses were paid for mileage claims
                                                  that were significantly greater than the
The Office's caseload decreased                   direct route.
significantly during FY 2005. The time
to process cases decreased sharply since          We suggested that the Finance Chief
FY 2000. The percentage of cases                  coordinate with the Division of
sustained ranged from 1 to 1.4 percent            Operations-Management's Associate
since FY 2000. Sustained appeals were             General Counsel to pursue methods that
processed in a median of 83 days and all          would allow deobligations of witness
appeals were processed in a median of             and travel fees during the fiscal year in
18 days. The procedures for processing            which the obligation occurs, and remind
cases include operating efficiencies such         the Regional Offices that they should
as providing decision-making authority            review mileage claims for
to the lowest possible level.                     reasonableness.




NLRB OIG Semiannual Report                    5               April 1 – September 30, 2006
                                                                       AUDIT PROGRAM

•   We issued Inspection Report                •   We issued Inspection Report
OIG-INS-43-06-03, Reimbursable                 OIG-INS-41-06-04, Budget Execution,
Travel, on August 29, 2006. We                 on September 6, 2006. We evaluated
determined whether travel reimbursed to        Agency actions to effectively implement
the NLRB by outside parties was                budget execution, focusing on
properly approved and reimbursed in            identifying funds available at year-end.
accordance with Federal regulations.
                                               The inspection identified that, on
Generally, employees were properly             average, approximately $1 million per
reimbursed for travel and reports to the       year of the Agency’s annual
Office of Government Ethics were               appropriation lapsed during the FY 1999
complete and accurate. A significant           to 2004 period. The funds lapsed
number of employees in our sample              because of (1) lack of effective
traveled before trips were appropriately       monitoring and timely adjustment of
authorized. Also, a few trips were taken       obligated amounts and (2) amounts
before the Designated Agency Ethics            reserved for valid obligations that might
Official concurred with accepting the          be identified after fiscal year end. The
travel reimbursements. Employees were          report also identified that the Agency
not consistently using the Agency's            had not published funds control
travel agent and fees were not always          regulations.
billed to the sponsoring organizations.
                                               The Agency acknowledged that in some
We found one trip that was not billed to       cases obligations were not effectively
the sponsoring organization. The               managed, but stated that Agency budget
Finance Branch promptly billed the             execution actions were sufficient. The
sponsor for $1,164. A payment was              Agency disagreed with our suggestions.
received before we issued our report.          Considering that over $1.8 million has
                                               already lapsed for FY 2005, we believe
                                               our suggestions have merit.

NLRB OIG Semiannual Report                 6              April 1 – September 30, 2006
                                                                        AUDIT PROGRAM

•   We issued Inspection Report                 •   We issued Inspection Report
OIG-INS-47-06-05, Trusted Insider               OIG-INS-46-06-06, Protection of
Threat, on September 11, 2006. We               Sensitive Agency Information, on
evaluated the effectiveness of internal         September 18, 2006. This review was
security control architecture in                part of a Government-wide effort to
mitigating the risks of an attack on the        provide the Office of Management and
IT systems.                                     Budget (OMB) with a consolidated
                                                report on adherence to OMB
The goal of the inspection was to better        Memorandum 06-16, Protection of
understand the extent that a trusted            Sensitive Agency Information.
insider who has physical access to the
NLRB facilities could elevate his or her        We found that the Agency had not
IT privileges to obtain unauthorized            completed most of the requirements by
access to IT resources. The report noted        the August 7, 2006, due date. The
a number of findings and suggestions.           Agency made progress towards
The Chief Information Officer (CIO)             implementing the required actions to
responded that he agreed with most of           safeguard their information assets, but
the findings and has taken or planned to        completion was not expected until the
take action to correct them.                    third quarter of FY 2007.


Due to the sensitive nature of the              The inspector general community
findings, we did not make the report            consolidated 49 reviews, including ours,
available to the general public and             into one report, Federal Agencies'
limited distribution of the report within       Efforts to Protect Sensitive Information,
the NLRB to those individuals with a            A Report to the Office of Management
need to know the information.                   and Budget. This report was submitted
                                                to OMB on October 12, 2006.




NLRB OIG Semiannual Report                  7              April 1 – September 30, 2006
                                                                         AUDIT PROGRAM

•   We issued Inspection Report                  •   We released Issue Alert
OIG-INS-48-06-07, FEMA Mission                   OIG-IA-06-02, Procurement Integrity,
Assignment Process, on September 29,             on May 25, 2006. We initiated an
2006. We reviewed the effectiveness of           investigation involving issues that
the Federal Emergency Management                 included the appropriateness of
Agency’s mission assignment process              requesting information from potential
for volunteer services.                          contractors before a statement of work
                                                 was issued. The actions of Agency
The NLRB’s procedures were effective             personnel were consistent with the
in mobilizing Agency employees.                  Federal Acquisition Regulation
Forty-seven NLRB employees                       requirements to conduct market
volunteered. Eighteen of these were              research. We had, however, several
deployed. All four employees                     procedural concerns regarding
interviewed stated that their overall            communication and the maintenance of
experience was rewarding.                        the contract file. We suggested that
                                                 managers coordinate and consult with an
Generally, travel costs submitted by             Agency procurement official when
employees were eligible for                      initiating or engaging in the acquisition
reimbursement. One employee,                     process.
however, received $195 in duplicate
payments for 5 days of per diem and was          •   We released Issue Alert
overpaid $324 for rental car charges.            OIG-IA-06-03, Intranet Site
Three employees were not reimbursed              Vulnerability Assessment, on
for the correct number of overtime hours         September 15, 2006. We provided the
and one employee was not reimbursed at           issue alert to notify the CIO of possible
the correct overtime rate, resulting in an       security vulnerabilities associated with
estimated $1,700 in overtime not paid.           the Agency's Intranet site. These




NLRB OIG Semiannual Report                   8              April 1 – September 30, 2006
                                                                         AUDIT PROGRAM

vulnerabilities were discovered using            •   Audit of Archiving Case Files,
WebInspect software. The software uses           OIG-AMR-43-04-03, was issued on
an automated penetration test that               September 20, 2004, and we reached
customizes the attacks based on a Web            agreement with management on actions
site's behavior and environment. Due to          needed to implement the 10
the sensitive nature of the findings, we         recommendations on that date. Actions
did not make the report available to the         necessary to close this audit were
general public and limited distribution of       completed by May 11, 2006.
the report within the NLRB to those
individuals with a need to know.                 •   Audit of the NLRB Fiscal
                                                 Year 2004 Financial Statements,
•   The Federal Information Security             OIG-F-9-05-01, was issued on
Management Act of 2002 requires                  December 22, 2004, and we reached
inspectors general to conduct annual             agreement with management on that
reviews of information security                  date. Recommendations were made to
programs. The OIG review was                     the CIO and the Director of
primarily accomplished as part of the            Administration.
audit of the FY 2006 financial
statements. On September 29, 2006, the           The CIO originally agreed to implement
Chairman submitted reports from the              four recommendations by December
Inspector General and the CIO to OMB.            2005. Action on one recommendation,
                                                 to implement a disaster recovery plan in
Audit Follow-up                                  accordance with National Institute of
Agreed upon actions were not completed           Standards and Technology standards,
within 1 year on four audit reports. One         has not been completed. This
of these reports is now closed.                  recommendation was repeated in the
                                                 audit of the FY 2005 Financial




NLRB OIG Semiannual Report                   9              April 1 – September 30, 2006
                                                                        AUDIT PROGRAM

Statements. The Agency contracted for           the remaining recommendations by
and received a disaster recovery plan in        December 31, 2006.
September 2006. The plan now needs to
be fully implemented and tested.                One of the remaining recommendations,
                                                to develop a plan for the Human
The Director of Administration agreed to        Resources Branch to conduct regular
implement four recommendations made             time and attendance reviews, repeats a
in the management letter. Action on one         similar recommendation we made in our
recommendation, to integrate the                Evaluation of Time and Attendance
Regional Office budget data into the            Practices, which was issued on
Agency's accounting system, has not             February 29, 2000. Our August 2005
been completed. The Agency planned to           report notes that the Human Resources
do this concurrently with implementing          Director stated that reviews of one
an eTravel system. Contractor delays in         Region and one Headquarters office
implementing the eTravel system,                were conducted in 2001, but that further
however, have delayed integrating the           reviews were not conducted due to
Regional Office budget data with the            budget constraints. Budget constraints
Agency's accounting system. The                 do not eliminate the responsibility of the
Agency plans to implement this                  Director to perform evaluations, possibly
recommendation during FY 2007.                  in some alternative manner.


•   Non-Standard Work Hours                     •   Safeguarding Social Security
Compensation, OIG-AMR-47-05-04,                 Numbers, OIG-AMR-48-05-05, was
was issued on August 9, 2005, and we            issued on August 31, 2005, and we
reached agreement with management on            reached agreement on that date. Action
that date. Action was completed on four         was completed on three of the five
of the seven recommendations.                   recommendations. The two remaining
Management is working to implement



NLRB OIG Semiannual Report                 10              April 1 – September 30, 2006
                                                                       AUDIT PROGRAM

recommendations are to publish a               General Counsel case tracking systems
Privacy Act System of Records Notice           and associated paper files rather than
for the Case Activity Tracking System          publish a System of Records Notice only
(CATS) and other Regional Office files         for CATS. The Rules Committee
and revise Agency forms that do not            forwarded those documents to the Board
comply with Privacy Act requirements.          in October 2006.


After several years of review and our          The Agency reported that all but one of
insistence, the Agency drafted a System        the forms have been revised.
of Records Notice for CATS. The Board          Management said that this form cannot
then directed the Special Litigation           be updated until the CATS Privacy Act
Branch to draft System of Records              System of Records Notice is issued.
Notices for all Board and




NLRB OIG Semiannual Report                11              April 1 – September 30, 2006
                                                INVESTIGATIONS PROGRAM

The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate investigations relating to the programs and operations of the Agency. OIG
processed 78 contacts, initiated 7 cases, and closed 9 cases. The investigations resulted
in one removal, one resignation, one suspension, and $27,636 in investigative recoveries.


                        Case Workload                     Contacts Processed

                  Open (4/1/2006)       12           Received                  78

                  Initiated                 7        Initiated Investigation    1

                  Closed                    9        Opened Case --             0
                                                     Referred to Agency
                  Open (9/30/2006)      10           Non-Investigative         77
                                                     Disposition


•   Contractor Outside Business                       activities for time that was bill to the
Activity and Internet Misuse. The                     Agency. The Agency and the contactor
OIG initiated an investigation of a                   resolved the allegation by entering into a
contract employee for misusing the                    settlement that provided a $20,687
Agency's Internet access. During the                  refund to the Agency.
course of a routine review of the                     (OIG-I-394)
Agency's Internet firewall logs, we
found evidence that the Agency was                    •    Contractor Sexually Explicit

charged for services for a contract                   Internet Misuse. The OIG initiated an

employee during time when the contract                investigation of contract personnel for

employee was using the Agency's                       misusing the Agency's Internet access.

Internet access for activity unrelated to             During the course of a routine review of

the contract. After seizing the hard drive            the Agency's Internet firewall logs, we

from the Government computer that was                 found evidence that the Agency was

assigned to the contract employee, we                 charged for services of the contract

also found evidence that the employee
was engaged in outside business

NLRB OIG Semiannual Report                      12                   April 1 – September 30, 2006
                                                               INVESTIGATIONS PROGRAM

employee during time when the contract           knowledge. Evidence collected during
employee was using the Agency's                  that process, however, substantiated that
Internet access to view sexually explicit        the subject sent and received sexually
material. After seizing the hard drive           explicit material through the Agency's
from the Government computer that was            e-mail system, that the subject engaged
assigned to the contract employee, we            in outside business activity during
substantiated the allegation. The                official duty hours, and the subject
Agency and the contractor resolved the           downloaded instant messaging software
allegation by entering into a settlement         and then used it to communicate
that provided a $6,949 refund to the             sexually graphic messages for a period
Agency. (OIG-I-391)                              of several months.


•   Employee Outside Business                    During this reporting period, the Agency
Activity and Sexually Explicit                   removed the employee. The removal
Material. As previously reported, the            was upheld by an arbiter following a
OIG initiated this case following a              grievance hearing. (OIG-I-380)
review of the Internet firewall records
that showed the subject having an                •   Employee Sexually Explicit
unusual pattern of Internet use involving        Internet Misuse. OIG initiated a case
a Web site called "marketwatch.com."             following a proactive review of the
This site appeared to offer prizes for           Agency Internet firewall records. That
allowing it to track a user's Internet           review disclosed evidence that an
activity.                                        Agency employee was using the Internet
                                                 access to view sexually explicit material.
A forensic review of the hard drive from         Using commercially available forensic
the subject's Government computer                software, we substantiated the
found that "marketwatch.com" activity            allegation. The employee resigned
was the result of "spyware" that was             while disciplinary action was pending.
downloaded without the subject's                 (OIG-I-390)


NLRB OIG Semiannual Report                  13              April 1 – September 30, 2006
                                                                 INVESTIGATIONS PROGRAM

•   Employee Sexually Explicit                     •   Obstruction of Justice. OIG
Internet Misuse. As previously                     initiated this case after receiving a
reported, OIG initiated a case following           complaint from the Division of
a referral of an allegation from Agency            Operations-Management. A party in an
management that an employee was using              unfair labor practice (ULP) case
his Government computer to view                    allegedly obstructed justice by claiming
sexually explicit material on the Internet.        that a document submitted in the ULP
                                                   case was a forgery.
Using commercially available forensic
software, we substantiated the                     After conducting a series of interviews,
allegation. During this reporting period,          we determined that the only remaining
the employee received a 1-day                      investigative lead was a forensic
suspension.                                        examination of the document to
(OIG-I-386)                                        determine if the finger prints of
                                                   management officials involved in the
•   Travel Card Misuse. OIG initiated              ULP case were present on a document
a case following a proactive review of             that they claimed was a forgery. The
the transactions for the CitiBank Travel           forensic examination did not find any of
Card. During that review, we identified            the company's management official's
what appeared to be $1,140 in cash                 fingerprints on the letter.
advances unrelated to official travel.
                                                   Because all investigative leads were
When interviewed, the subject admitted             exhausted, we closed the case.
that he engaged in this misconduct.                (OIG-I-384)
Agency managers are currently
considering disciplinary options.
(OIG-I-397)




NLRB OIG Semiannual Report                    14               April 1 – September 30, 2006
                                                                INVESTIGATIONS PROGRAM

Hotline                                            further inquiry is warranted. Most
Employees and members of the public                HOTLINE contacts are calls from
with information on fraud, waste, and              members of the public seeking help on
abuse are encouraged to contact OIG. A             an employment related problem or issues
log of calls to a nationwide toll free             outside OIG and/or Agency jurisdiction.
number or the office numbers and a log
of mail, e-mail, and facsimile messages            As appropriate, OIG refers these callers
are maintained. All information                    to the Regional Office; local, state, or
received, regardless of the method used,           Federal agency; or private resource to
is referred to as HOTLINE contacts.                provide assistance.


The information received over the                  During this reporting period, OIG
hotline is the basis for the initial review        received 78 hotline contacts, of which 39
for potential investigations. The                  were telephone calls and 39 were in
information is analyzed to determine if            writing. One contact resulted in an OIG
                                                   investigative case.




NLRB OIG Semiannual Report                    15               April 1 – September 30, 2006
                  LEGISLATION, REGULATIONS, AND POLICY
The Inspector General is to review existing and proposed legislation and regulations
relating to programs and operations of the Agency and is to make recommendations
concerning the impact of such legislation or regulations. Similarly, we review Agency
and OIG policy. We reviewed four pieces of legislation.

Legislation                                      certification no later than 12 months
We reviewed the following legislation.           after the filing of a petition. For unfair
                                                 labor practice complaints, it would
H.R. 5838, Federal Agency Data                   require that the Board issue any orders
Breach Notification Act. This                    no later than 6 months after an initial
legislation would strengthen                     complaint is served unless there is a
requirements related to security breaches        novel question of law, in which case the
of data involving the disclosure of              Board would have an additional 6
sensitive personal information. The act          months. These time limitations may be
would require timely notice to                   waived by the parties. The legislation
individuals whose sensitive personal             would also extend the term of a Board
information was compromised as a result          Member to allow the Member to
of a violation of the Privacy Act.               continue to serve until a successor has
                                                 been appointed.
H.R. 5310, National Labor Relations
Board Reform Act. This legislation               H.R. 5415, Relief of Vernadette Bader.
would set a timetable for NLRB                   This legislation would authorize the
decisions and adjust the terms of Board          Secretary of the Treasury to pay
Members. In representation cases, the            Vernadette Bader, out of any amounts in
legislation would require an election 6          the Treasury not otherwise appropriated,
months after a petition is filed by an           $11,202, as compensation for an
employer when a question of                      erroneous calculation made by the
representation exists as found by the            NLRB in the distribution of funds from a
Board on a record of a hearing and               case involving Taylor Machine Products
                                                 and seven of its former employees.


NLRB OIG Semiannual Report                  16               April 1 – September 30, 2006
                                                   LEGISLATION, REGULATIONS, AND POLICY

H.R. 5112, Executive Branch Reform                  reprisal for disclosing covered
Act of 2006. This legislation would                 information to an authorized Member of
require that each executive branch                  Congress, the Department of Justice, or
official record and file with the Office of         an Inspector General.
Government Ethics any significant
contact made between that official and              Regulations
any private party relating to an official           The Counsel to the Inspector General is
Government action. It would also set                an advisory member of the Agency's
prohibitions on certain executive branch            Rules Revision Committee that develops
officials who are entering or leaving               changes to the Agency's procedural
Government service and a prohibition on             regulations. During this reporting
unauthorized expenditure of funds for               period, the committee reviewed
publicity or propaganda purposes. The               proposals involving mandatory posting
legislation would also prohibit an                  of Agency notices by employers and
employee or applicant for employment                procedures involving representation
from being discriminated against as                 elections.




NLRB OIG Semiannual Report                    17                 April 1 – September 30, 2006
                                                         LIAISON ACTIVITIES

The Inspector General is to recommend policies for, and is to conduct, supervise, or
coordinate relationships between the Agency and other Federal agencies, state and local
governmental agencies, and non-governmental entities. The Inspector General is to give
particular regard to the activities of the Comptroller General of the United States.
Similarly, we encourage OIG staff members to participate in Agency programs and
activities. OIG staff are active in the inspector general community and Agency functions.

Inspector General Community                       The Counsel participated in the Council
The Inspector General is a member of              of Counsels to Inspectors General
the Executive Council on Integrity and            (CCIG). The Counsel continued to
Efficiency (ECIE), which consists                 participate as a member of a CCIG
primarily of the inspectors general at the        working group that is reviewing
designated Federal entities in the IG Act.        investigative manuals to determine if
She participated in activities sponsored          common areas exist in which a set of
by the President's Council on Integrity           "best practices" could be established.
and Efficiency (PCIE), which consists
primarily of the Presidentially-appointed         OIG Outreach
inspectors general. She joined the Audit          The Counsel provided legal counsel to
Committee in May 2001.                            an Inspector General who does not have
                                                  a counsel for a matter involving
The Assistant Inspector General for               litigation that required that Inspector
Audits, or designated auditors,                   General to produce documents and
participated in the Federal Audit                 appear at a deposition. The Counsel
Executives Council, Financial Statement           coordinated the production of the
Audit Network, and the PCIE                       documents with the Department of
Information Technology Roundtable.                Justice and appeared at the deposition
                                                  with that Inspector General.




NLRB OIG Semiannual Report                   18               April 1 – September 30, 2006
                                                                        LIAISON ACTIVITIES

Government Accountability Office                   The Inspector General attended an OIG-
The IG Act states that each inspector              GAO coordination meeting on April 28,
general shall give particular regard to the        2006. The Comptroller General
activities of the Comptroller General of           discussed 21st century challenges and
the United States, as head of the                  accountability partnerships with the
Government Accountability Office                   ECIE inspectors general. She also
(GAO), with a view toward avoiding                 attended the GAO accounting and
duplication and ensuring effective                 auditing update conference held May 9
coordination and cooperation. No                   and 17, 2006. The conference addressed
reviews of NLRB are currently ongoing.             challenges in accountability and
                                                   accountability reporting.




NLRB OIG Semiannual Report                    19              April 1 – September 30, 2006
                           INFORMATION REQUIRED BY THE ACT

Certain information and statistics based on the activities accomplished during this period
are required by section 5(a) of the IG Act to be included in the semiannual reports. These
are set forth below:

Section 5(a)

(1), (2), (7)   OIG did not identify significant problems, abuses or deficiencies relating to the
                administration of programs. For the purpose of this section, we used the
                definition of significant as set forth in the Federal Managers' Financial Integrity
                Act.

(3)             Corrective action has not been completed on all significant recommendations
                that were described in the previous semiannual reports.

(4)             No cases were referred to prosecutorial authorities. There were no
                prosecutions or convictions.

(5)             No reports were made to the Chairman that information or assistance requested
                by the Inspector General was unreasonably refused or not provided.

(6)             A listing by subject matter is located on page 21.

(8), (9)        One audit report issued during this period had a recommendation on questioned
                costs. One audit report issued during this period identified funds that could be
                put to better use. See Tables 1 and 2.

(10)            There are no audit reports issued before the commencement of the reporting
                period for which no management decision has been made by the end of the
                reporting period.

(11)            No significant revised management decisions were made during the reporting
                period.

(12)            There were no significant management decisions with which I am in
                disagreement.




NLRB OIG Semiannual Report                      20                   April 1 – September 30, 2006
                           AUDIT REPORTS BY SUBJECT MATTER

                                                                           Funds To
                               Questioned      Unsupported    Ineligible   Be Put To
Report Title and Number         Costs             Costs         Costs      Better Use

ADMINISTRATION

Information Technology
Procurement Actions
OIG-AMR-51-06-02                 $6,721          $2,433         $4,288     $500,000


FIELD INVESTIGATIONS

Office of Appeals Survey
OIG-AMR-53-06-03
                                   0                0             0            0




NLRB OIG Semiannual Report                21              April 1 – September 30, 2006
Table 1                         REPORTS WITH QUESTIONED COSTS

                                                           Dollar Value
                                      Number of    Questioned      Unsupported
                                       Reports       Costs            Costs
A. For which no management
   decision has been made by the
   commencement of the period             0            0               0

B. Which were issued during the
   reporting period                       1          $6,721          $2,433

       Subtotals (A+B)                    1          $6,721          $2,433


C. For which a management
   decision was made during the
   reporting period                       1          $6,721          $2,433

(i)      Dollar value of disallowed
         costs                            1          $6,721          $2,433

(ii)     Dollar value of costs not
         disallowed                       0            0               0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                 0            0               0

       Reports for which no
       management decision was
       made within six months of
       issuance                           0            0               0




NLRB OIG Semiannual Report                    22       April 1 – September 30, 2006
                             REPORTS WITH RECOMMENDATIONS
Table 2                      THAT FUNDS BE PUT TO BETTER USE


                                     Number of    Funds Be Put
                                      Reports     To Better Use
A. For which no management
   decision has been made by the
   commencement of the period            0             0

B. Which were issued during the
   reporting period                      1          $500,000

       Subtotals (A+B)                   1          $500,000


C. For which a management
   decision was made during the
   reporting period                      1          $500,000

(i)      Dollar value of
         recommendations that were
         agreed to by management         1          $500,000

(ii)     Dollar value of
         recommendations that were
         not agreed to by
         management                      0             0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                0             0

       Reports for which no
       management decision was
       made within six months of
       issuance                          0             0




NLRB OIG Semiannual Report                   23         April 1 – September 30, 2006
Every employee is the
guardian of integrity                                    .




                      OIG Hotline
                     1 800 736-2983
                  oighotline@nlrb.gov
                           or
                 1099 14th Street, NW
                 Washington, DC 20570


NLRB OIG Semiannual Report   24   April 1 – September 30, 2006
